IN THE
SUPREME COURT OF THE UNITED STATES

LARRY E. STARKES, JR.,
EX PARTE.

PROOF OF SERVICE
I, Larry E. Starks Jr., do swear or declare that on this date, served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS AND PETITION FOR WRIT OF HABEAS CORPUS RELIEF
on aech party to the above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the above mentioned documents
in the United States mail properly addressed to each of them and with first-class postage
pre-paid, or by delivery to a third party commercial carrier for delivery within 3 calender
days.
The names and addresses of those served are as follows:
SOLICITOR GENERAL OF THE UNITED STATES- RM 5614
DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE,
N.W. WASHINGTON, D.C. 20530-0001
I, declare under the penalty of perjury (1746), that the foregoing is true and correct,
Executed on

(]AA

n f

, 2021.

£,

V

<n>

SIGNATURE

